Nfc

©-7902

ORIGINAL
FILED
APR 0 6 2021

IN THE
SUPREME COURT OF THE UNITED STATES

OFFICE OF THE CLERK .
Qi lopc^P r'/Ti

John Laponte

— PETITIONER

(Your Name)
vs.
Craig Koenig

— RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO

Supreme Court for the State of California No. S266867- 03/17/2021

(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

John Laponte, CDCR #E-50787

(Your Name)
CTF/P.O. Box 689,

C-DW-118-L

(Address)
Soledad, California. 93960-0689

(City, State, Zip Code)
N/A

(Phone Number)

idt m

q

QUESTION(S) PRESENTED
1 .

Is petitioner entitled to enforce the terms of his plea agreement;

2.

Is indefinite incarceration constitutional;

3.

What constitutes excessive punishment.

LIST OF PARTIES

[x] All parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

TABLE OF AUTHORITIES CITED

CASES
BOYKIN v. ALABAMA,

PAGE NUMBER
( 1 969 ) 3 95 U.S. 238

SANTOBELLO v. NEW YORK, 404 U.S. 257 (1971)

STATUTES AND RULES
Penal Code Section 3040 et seq.
Penal Code Section 1170.2
Code of Regulations 15 CCR §2280 et seq.
Penal Code Section 209(b)

OTHER

TABLE OF CONTENTS

OPINIONS BELOW

1

JURISDICTION
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
STATEMENT OF THE CASE
REASONS FOR GRANTING THE WRIT
CONCLUSION

INDEX TO APPENDICES
APPENDIX A

APPENDIX G

APPENDIX M

APPENDIX B

APPENDIX H

APPENDIX N

APPENDIX C

APPENDIX I

APPENDIX 0

APPENDIX D

APPENDIX J

APPENDIX E

APPENDIX K

APPENDIX F

APPENDIX L

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.

OPINIONS BELOW
[ ] For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix
the petition and is

to

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the United States district court appears at Appendix
the petition and is
[ ] reported at
; or.
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
[x] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix
___ to the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[x] is unpublished.
The opinion of the California Court of Appeal, Second Appel la ternnrtB
appears at Appendix
to the petition and is
[ ] reported at ____
; or.
[ ] has been designated for publication but is not yet reported; or
[x] is unpublished.
1.

to

JURISDICTION
[ ] For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was________________________
[ ] No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date: __ ___________
, and a copy of the
order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including_______
(date) on
(date)
in Application No. __ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[x] For cases from state courts:
The date on which the highest state court decided my case was 3/17/2021
A copy of that decision appears at Appendix
_____
[ ] A timely petition for rehearing was thereafter denied on the following date:
N/A
, and a copy of the order denying rehearing
N/A
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including n/a________
(date) on n/a
(date)in
Application No. n/a a n/a
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

U.S. Constitution:
U.S. Constitution 5th Amendment
U.S. Constitution 8th Amendment
U.S. Constitution 13th and 14 Amendment
Statutory Provisions: California Penal Codes;
PC §209(b)
PC §236
PC §245(a)(2)
PC §211
PC §3040
PC §3041(c)
PC §1168
PC §1170
California Code of Regulations:
15 CCR §2280 et seq.

STATEMENT OF THE CASE
On December 20,

1989, petitioner was charged in an information with one count of

kidnap for ransom (Pen.

code §209(a). One count of False Imprisonment by violence

(Pen. Code §236, count 2. One count of assault with a firearm (Pen. Code §245(a)(2)
Count 3. Robbery (Pen. Code §211) Count 4. It was also alleged as to all counts that
petitioner personally used a firearm. (Pen. Code §12022.5)
Petitioner entered guilty pleas to count 1. amended to a violation of Penal Code
section 209(b) and to the remaining three counts, in exchange for a promised sentence
of life with the possibility of parole on count 1. and the middle term on each of the
three remaining counts concurrent to the life term.
At the March 21,

1990, sentencing hearing the court imposed a sentence of life

with the possibility of parole as follows: on count 1. the firearm was stricken, arid
the court imposed a sentence of life with the possibility of parole. On count 2. the
middle term of two years plus two years for the firearm enhancement. On count 3. the
middle term of three years was imposed, plus 2 years for the firearm enhancement. And
on count 4. the middle term of two years was imposed plus two years for the firearm
enhancement. Count 2. was stayed pursuant to Penal Code section 654; counts 3 and 4
were designated concurrent sentences.
On May 10, 2017 (27 years into the sentence) the trial sentencing court (granted)
a "motion for modification of the original sentence imposed on March 21, 1990?) and
ordered that the sentences imposed on counts 3 and 4 should be stayed pursuant to
Penal Code section 654.

1

This

resulted

in

the

issuance

of

an

abstract

of

judgment

which

correctly

documented the three stayed sentences but erroneously documented a sentence of life
with the possibility of parole in count 1.
Petitioner wrote to the clerk of the court and pointed out the error and was
issued yet another abstract of judgment on August 31, 2017 with the same error in
count 1.
On November 17, 2017, after a petition for writ of mandate was heard and granted
in the Second Appellate District Court of Appeal in case number (B285920) that court
ordered the Superior Court to "correct the abstract of judgment to reflect the terms
of petitioner's plea agreement,

as modified on May 10,

2017, which should reflect

that petitioner is serving a sentence of life with the possibility of parole." A
correct abstract of judgment, reflecting stayed sentences on counts 2 through 4 and a
sentence of life with the possibility of parole on count 1. was filed November 16,
2017. Petitioner now has 4 abstract's of judgment in one case, this mainly due to the
fact that the trial court never brought petitioner to court for the proceedings? and
petitioner alleged in a timely appeal that the modification of his original sentence
violated his plea agreement. Petitioner filed a timely notice of appeal on January 2,
2018 pursuant to California Penal Code section 1237.
/

2

STATEMENT OF FACTS

On 12/07/2020, petitioner filed a writ of habeas corpus in the state court of
California Los Angeles Count In re John Laponte v. Graig Koenig, Case No. KA001795,
On 12/15/2020, petition (denied) without citation. At Appendix "C" the grounds stated
in the petition were as follows:
Ground 1. CDCR Falsely imprisoning petitioner;
Ground 2. Board of Parole Hearing lost jurisdiction over the petitioner;
Ground 3. Petitioner alleged a 9th suitability hearing held by the Board of Parole
Hearings On April 10, 2020, was in fact unconstitutional since the Board had lost
jurisdiction over the petitioner when they set his life sentence term on September
13, 2016 at 12 years;
Ground 4. Petitioner alleged his continued unlawful confinement violated the U.S.
Constitution's 13th Amendment;
Ground 5. Petitioner alleged he was entitled to enforce the terms of his original
plea agreement.
On January 4,

2021,

the same petition was filed in the California court of

Appeals for the Second Appellate District Court in In re JOHN LAPONTE, On Habeas
corpus No.

(B309741)

said

petition was

(denied)

On

January

13, ' 2021,

with a

citation for petitioner to return to the very court which (denied) the petition on
12/15/2020 Superior Court at Appendix "C" with all other respects to the petition
it was (summarily denied) on January 13, 2021 at Appendix "B"

3

On March 17, 2021, the highest state court Supreme court of California Case No.
S266867 (summarily denied) petitioner's without citation. At Appendix "A"
Petitioner did not seek a re-hearing. Petitioner

claims

this

court

retains

jurisdiction over the subject matter.
/
SUPPORTING FACTS AND DOCUMENTS APPENDICED
On March 21, 1990, petitioner did sign the plea agreement waiver at Appendix "D"
the sentence imposed co-incides with the sentencing

transcript at Appendix "E"

which

only

states

in part

at p.

3.

lines

8

10.

The

agency who

could set

petitioner's sentence in a number of years was the Board of Prison Terms pursuant
to PC §3040. At Appendix "G" original sentencing abstract of judgment "which co­
incides with the original sentence imposed).
On December 16,

2013,

the Executive Officer the the Board of Parole Hearings

JENNIFER SHAFFER, entered into a stipulation and agreement with prisoner/inmate Roy
Butler, In re Butler, Cal.App.lst.(A139411) December 16, 2013. In this stipulation
and agreement the Board of Parole Hearing would now set the "Base and Adjusted Base
Term for all life term prisoner's and those prisoners who have already been to their
initial parole hearings

would

have

their

terms

set

at

their

next

scheduled

suitability hearings, the implementation of this stipulation and agreement began on
April 1, 2014.
PETITIONER'S 8th SUITABILITY HEARING
On November 2008, California voters changed the parole deferral that could be
handed out by the Board pursuant to Penal code section 3041.5.

4

This law known as Proposition 9. Marcy's Law, was applied to petitioner at his
8th suitability hearing on november 23, 2009. where the Board of Parole Hearings
could now defer parole for period's of and up to: 15 years, 10 years, 7 years, 5
years and a minimum of 3 years. Penal Code section 3041.5
Prior to this change in the law, under the original law when petitioner entered
and signed his plea agreement the maximum parole deferral that could be issued for
"non-homicde case" was 2 years. Penal Code section 3041.5
At petitioner's 8th parole suitability hearing which took place on November 23,
2009, because petitioner refused an
Attorney

LAWRENCE

MORRISON,

who

offer by Los Angeles County Deputy District

offered

petitioner

a minimum

petitioner would stipulate to

the

Board that he was not

petitioner

and

Deputy

refused

said

offer

of

3

years

if

ready to be paroled?

District Attorney

LAWRENC E MORRISON,

attempted to influence the Commissioner to defer parole for petitioner for a period
of 15 years? Petitioner

debated

with

the

commissioner

that

the

application

of

Proposition 9 was Ex Post Facto Law in direct violation of Article 1. Section 9.
(3) Ex Post Facto Law: No bill of attainder or ex post fact shall be passed.
Petitioner also explained 'to the Board Commissioner that the application of Ex
Post Facto Law violated petitioner's

original plea agreement and the law that

governed said agreement made on March 21, 1990?
This information seemed to infuriate the commissioner and (she) deferred parole
to petitioner for a period of 10 years.
Petitioner alleges that the change in the law Penal Code section 3041.5 now
stated that pursuant to Penal Code section 3041.5(d)(1) or (d)(2) inmate's could
petition to advance a previous parole deferral?

5

Petitioner made

several

attempts

to utilize

this procedure

pursuant

to

the

changes and stipulated agreement made by the Executive Officer JENNIFER SHAFFER,
the the Bulter, stipulation agreement In re Butler, Cal.App.1st.(A139411) December
16, 2013, implemented April 1, 2014.
Every attempt made by petitioner to "advance his hearing and have his life term
set was (denied) by the Board of Parole Hearings pursuant to Penal Code section
3041.5(d)(1) tor (d)(2)?
PETITIONER’S STATE WRIT OF HABEAS CORPUS
In re JOHN RAFAEL LAPONTE, Cal.App.2d.(B267768) July 29, 2016
At Appendix "G" Unpublished Decision
On July 29,

2016,

the California Court of Appeal,

Second Appellate District

Court in In re JOHN RAFAEL LAPONTE, Cal.App.2d.(B267768) July 29, 2016, (GRANTED)
petitioner habeas corpus relief and ordered the Board to set petitioner's base and
adjusted base term. At Appendix

tl II

G" Unpublished Decision.

Petitioner alleges that another issue arose after the -Court of Appeals in the
above mentioned case appointed counsel MICHAEL SATRIS, who discovered during the
state habeas corpus proceedings that "the trial court imposed an

'unauthorized

sentence' on March 21, 1990"
See Appendix "G" p. 3. Foot Note 3. where it states:
3 In his traverse, petitioner raises a new claim that each of
counts 2, 3 and 4 should have been stayed pursuant to PC §654.
Because this issue was not raised in the petition, we do not
consider it.

6

However, what the Court of Appeal, Second Appellate District did was order that
the Board of Parole Hearings had (90) days to set petitioner's base and adjusted
base term at a number of years, At Appendix "G" p. 7 - 10.
On September 13, 2016, the Parole board (did) set petitioner's base and adusted
base

term at

a determinate

term in

count

1.

of

12 years,

then

chose not

to

aggravate or mitigate that term of 12 years. At Appendix "H" BPH form 1135.
The Parole Board chose California Regulations Matrix 15 CCR §2282(c) and chose
the middle term at 12 years. Appendix "H" p. 2. 15 CCR §2282(c) Matrix.
Petitioner alleges

that the stipulation and agreement made be

the Executive

Officer JENNIFER SHAFFER, in In re Butler, Cal.App.1st.(A139411) December 16, 2013
implemented April 1, 2014, violated state parole regulations governing parole and
fact findings of life term prisoners pursuant to 15 CCR §2282(a) which states in
part:
(a) General. The panel shall set the base
term for each life prisoner who is found
suitable?
The stipulation and agreement in In re Butler, Cal.App.1st.(A139411) December 16,
2013,

implemented on April 1,

2014, made absolutely no reference to a life term

prisoners (status) pursuant to 15 CCR §2282(a) once each priosner's base term were
set. Therefore, petitioner alleges that once the Executive Officer of the Parole
Board made this decision it was not even considered what the regulation pursuant to
the setting of the base term would affect each prisoner's life term converting that
term from and indeterminate term into a determinate term?

7

Petitioner alleges that he brought this fact in a writ of habeas corpus to the
state of California's highest Supreme Court and on March 17,

2021,

the state's

highest court denied review of the issues. At Appendix "A" state court's highest
ruling.
Petitioner,
adjusted base

also brought the fact that once the Parole Board set his base and
term on count 1.

parole and (denied)

of petitioner life term with the possibility of

petitioner continued parole procedures pursuant to statutory

provisions in accord with state law Penal Code section 3041.(c) the Parole Board had
actually lost jurisdiction over the petitioner as of September 13, 2016?
PETITIONER ALLEGES THAT HE WAS ENTITLED TO A CONTINUED STATUTORY PROCESS
PURSUANT TO PENAL CODE §3041(c)
Which states in part:
For the purpose of reviewing the
suitability
for
parole
of
those
prisoners eligible for parole under
prior law at a date earlier than that
calculated under section 1170.2, the
board shall appoint panels of at least
two persons to meet "annually" with
each such prisoner until such time as
the person is released pursuant to
such
proceedings
or reaches
the
expiration of his term as calculated
under Section 1170.2.
At Appendix "G" Cal.App.2d.(B267768) July 29, 2016, at p. 10. (Disposition) the
parole board was given (90) days to set petitioner's life term at a number of years.
However,

they were given an option to give petitioner 1.

A new hearing, or 2.

Provide petitioner with a written statement? The Parole Board chose option 2 and
mailed petitioner a written statement of there actions taken on September 13, 2016.
Appendix "H" p. 1.

8

Thus, in choosing option 2 of the court's order in Appendix "G" p. 10. The Parole
Board violated petitioner's statutory continued parole process since petitioner was
no

longer under Proposition 9 Marcy's Law where parole could be deferred for a

higher period than what the current procedure pursuant called for which was pursuant
to PC §3041(c) "annual" hearings until such time as petitioner would be released or
his term as calculated pursuant to PC §1170.2, expired?
Thus, it was also incorporated in petitioner's writ of state habeas corpus that
petitioner was entitled to enforce the terms of his original plea agreement and
sentence

once

that

sentence

had been calculated

transcript? Appendix "E" p. 3 lines 8

in

accord with the

sentencing

10.

PETITIONER'S VIOLATIONS OF THE ,ELEA AGREEMENT 7DID NOT END HERE
At Appendix "I" Motion for Modification of Sentence filed by court appointed counsel
MICHAE SATRIS. Court appointed counselor had also discovered that on March 21, 1990,,
petitioner

had

waived

his

federal

constitutional

rights

and

received

an

"unauthorized sentence" imposed by the trial court.
On May

10,

2017,

the trial court

(judge)

STEVEN D.

BLADES (IN CHAMBERS) did

modify petitioner's original sentence and elevated petitioner's term in count 1.
from life with parole to life without parole? also the fact that the judge (STEVEN
D. BLADES) stayed the sentences in count's 3-4, these sentences were tied into and
ran concurrent to count 1. Thus, petitioner was entitled 1. to be present during
these procedures and 2. petitioner had the right to direct appeal pursuant to PC
§1237. All which were (denied) to petitioner.

9

What petitioner did received from the order and modification was 3 new abstract
of judgment's none which cd-incide with petitioner's original sentencing transcript
located at Appendix "E"
At Appendix "J" ORDER GRANTING MOTION FOR MODIFICATION OF SENTENCE (IN CHAMBERS).
On May

10,

2017,

27 years

after

the

sentencing

court

issued

to petitioner

an

"unauthorized sentence" in direct violation of Boykin/Thai.
At Appendix "K" 1st. Amendment abstract of Judgment depicts in count 1. petitioner
was now serving a term of life without parole? at p. 1. also at p. 2. CR-290 the term
in count's 2-4 were all now stayed?
At Appendix "I" On August 31, 2017, the trial court again in there attempt to set
petitioner's 2d amended abstract of judgment again elevated

petitioner's

tern

in

count 1. to life without parole and at p. 2. of Appendix "I" CR-290 count's 2

4

were all stayed pursuant to PC §654?
It was not until petitioner filed a petition for writ of mandate in the Court of
Appeal,

Second Appellate District Court No. B285920)

that the Superior Court was

ordered to correct the sentence in count 1. from life without parole to life with
the possibility of parole at Appendix "M" 3rd amended abstract of judgment.
Petitioner now is in possession of 4 abstract of judgment's in his case People v.
Laponte, Case No. KA001795-01.
At Appendix "N" CDCR Generated Form known as "Legal Status Summary Sheets"
These documents are evidence of the sentence prisoner's arrive with on the date of
reception by the California Department

of

Corrections.

At

Appendix

"N"

p.

1.

Petitioner's original CDCR Legal Status Summary Sheet depicts he was received by
CDCR on March 30, 1990 with the sentence imposed by the trial court of:

10

At sentence components:
Count I. Life with parole;
Count 2. (stayed)
Count 3. 3 years the middle term plus 2 years enhancement;
Count 4. 3 years the middle term plus 2 years enhancement.
However, after the trial court's attempt to correct it's own error's petitioner
was issued a new and "false document" of what sentence he was received with by the
California Department of Correction on March 30, 1990. At Appendix "N" p. 2.
New CDCR Generated Form:

Legal Status Summary Sheet now depicts petitioner's

sentence received on March 30, 1990 as follows:
Count I. Life with parole;
Count 2. Stayed;
Count 3. Stayed;
Count 4. Stayed.
Petitioner alleges that he appeared before the Parole Board yet again on April
10, 2020, where he was (denied) parole for a period of 3 years in direct violation
of his federal constitutional rights to due process. U.S. Constitution's 5th and
14th Amendments. At Appeddix "0" On April 15, 2020, CDCR made yet another attempt to
correct it's own records by re-calculating petitioner's life term after the Parole
Board had (denied) parole to petitioner on April 10, 2020.
At Appendix "O" p. 3. depicts petitioner's maximum adjusted release date as of
09/14/1996 and the minimum date prior to becoming eligible for parole as 11/02/1993?
All these records have been altered to look like petitioner is serving the sentence
imposed by the trial court on March 21, 1990, but they are all false records.

11

The facts remain that petitioner was sentence to a life term in count 1. which
pursuant to PC §3041. Petitioner would have to serve the maximum minimum term prior
to becoming eligible for parole was 7 years. Therefore, Appendix "0" p. 3. depicts
petitioner's minimum

sentence

to be served is

11/02/1993? which would have put

petitioner serving the minimum of his life term at 3 years? instead of the mandatory
7 years pursuant to PC §3041.
/

12

REASONS FOR GRANTING THE PETITION

1. Petitioner's continued confinement is unconstitutional;
2. Petitioner’s plea agreement and sentence were violated on 4 different occasions;
3. The state court's in California have suspended the writ of habeas corpus;
4. Petitioner's continued confinement violates the 8th, 13th and 14th Amendment;
5. Petitioner is entitled to enforce the original terms of his plea agreement;
6. Petitioner has a liberty interest in the outcome of this petition.

13

MEMORANDUM OF POINTS BOTH STATUTORY AND FEDERAL CONSTITUTIONAL RIGHTS

On March 21,
No.

KA001795-01,

agreement

1990,

in the California Superior Court in People v. John Laponte,

petitioner

in Appendix

"A"

did

knowing

pursuant

to

and

voluntarily

Boykin v.

Alabama,

sign

the

(1969)

plea

waiver

395 U.S.

238,

petitioner's plea was protected by the four corners of the contract?
Plea agreement are enforceable by both state and statutory law in accord with
Santobello v.

New York,

404 U.A.

at p.

257.

U.S.

Constitution's 5th and

14th

Amendments.
Petitioner alleges that once his life term was set by the Board in a number of
years

pursuant

to

15

CCR

§2282(a)

he

was

deemed

suitable.

In

re

Butler,

Cal.App,lst.(A139411) December 16, 2013.
In accord with the changes in California Penal code 3041.5 by Proposition 9. Once
the Board set petitioner's base and adjusted base term he no longer could be denied
parole for the minimum of 3 years according to statutory law PC §3041(c) the Board
was to appoint two persons with each such prisoner's who has there terms calculated
pursuant to statutory law PC §1170.2 and these prisoner's were entitled to "annual
suitability hearings" no longer subject to PC §3041.5 Proposition 9 parole deferrals
for up and to 15 years, 10 years, 7 years, 5.years or the minimum term of 3 years.
Base on these facts petitioner believes the United States Supreme court should
issue a writ of certiorari in his favor and deem his term and continued confinement
unlawful.

14

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted,

X
April 7. 2021

